No. 20IN THE
SUPREME COURT OF THE UNITED STATES
_________
STAFON THOMPSON,
Petitioner,
v.
STATE OF MINNESOTA,
Respondent.
________
On Petition for a Writ of Certiorari to the
Minnesota Supreme Court
________
APPENDIX TO THE PETITION
FOR A WRIT OF CERTIORARI
________
Rachel Moran
Counsel of Record
University of St. Thomas School of Law
Legal Services Clinic
30 South 10th Street Suite 100
Minneapolis, MN 55403
(651) 962-4810
rmoran@stthomas.edu
Attorney for Petitioner

TABLE OF CONTENTS
Appendix A (Minnesota Supreme Court Opinion, filed April 29, 2020) ..................... ..............3a
Appendix B (Resentencing Order, Hennepin County District Court, filed March 26,
2019) .............................................................................................................................. .............15a
Appendix C (Federal District Court’s Order Adopting Report And Recommendation, filed
December 14, 2016)................................................................................................................... ..26a
Appendix D (Excerpt from Mr. Thompson’s Minnesota Supreme Court Brief)...................... 29a
Appendix E (Excerpt from Mr. Thompson’s Reply To State’s February 15 Additional Briefing,
Hennepin County District Court).............................................................................................. 37a
Appendix F (Joint Meet And Confer Statement) .....................................................................40a

APPENDIX A
MINNESOTA SUPREME COURT
_________
STATE OF MINNESOTA,
Respondent,
v.
STAFON EDWARD THOMPSON,
Appellant.
________
OPINION
[FILED APRIL 29, 2020]
________
(1a)

2a
STATE OF MINNESOTA
IN SUPREME COURT
A19-0717
Hennepin County District Court

McKeig, J.
Concurring, Chutich, Anderson, Thissen, JJ.

State of Minnesota,
Respondent,
Filed: April 27, 2020
Office of Appellate Courts

vs.
Stafon Edward Thompson,
Appellant.

________________________

Keith Ellison, Attorney General, Saint Paul, Minnesota; and
Michael O. Freeman, Hennepin County Attorney, Mark V. Griffin, Senior Assistant
County Attorney, Minneapolis, Minnesota, for respondent.
Rachel Moran, University of St. Thomas Legal Services Clinic, Minneapolis, Minneso ta,
for appellant.
________________________
SYLLABUS
1.

The district court did not err in concluding that the language of the federal

district court order reflected a limited remand.

1

3a
2.

The district court did not abuse its discretion in concluding that the issue of

whether appellant’s sentences should be served consecutively was beyond the scope of the
remand order.
Affirmed.
OPINION
McKEIG, Justice.
Appellant Stafon Edward Thompson appeals from a state district court order that
revised his sentence from two consecutive terms of life without the possibility of release
to two consecutive terms of life with the possibility of release after 30 years. According to
Thompson, when the federal district court partially granted his petition for a writ of habeas
corpus and remanded for resentencing, the state district court should have held a hearing
on the issue of whether his sentences should be served consecutively.

Because the

language of the federal district court’s order indicated a limited remand, the state district
court did not abuse its discretion when it strictly followed the terms of the remand order.
We therefore affirm.
FACTS
In 2009, after a 3-week trial, a Hennepin County jury found Stafon Edward
Thompson guilty of two counts of first-degree premeditated

murder, Minn. Stat.

§ 609.185(a)(1) (2018), for the brutal killings of Katricia Daniels and her 10-year-old son,
Robert Shepard. The 2009 sentencing statutes mandated that Thompson be sentenced to
life without the possibility of release (LWOR). See Minn. Stat. § 609.106, subd. 2(1)
(2008). The district court did not order a presentence investigation or hear any argument
2

4a

on the issue of consecutive sentencing.

The district court heard eight victim- impac t

statements and asked Thompson if he would like to address the court, but Thompso n
declined. In accordance with Minnesota Sentencing Guidelines 2.F.2.a(1)(ii), the district
court ordered that Thompson serve two LWOR sentences consecutively.

We affir med

Thompson’s convictions and sentences on direct appeal. State v. Thompson, 788 N.W.2d
485 (Minn. 2010).
Two years after we affirmed Thompson’s convictions and sentences, the United
States Supreme Court held that mandatory LWOR sentences for juvenile homic ide
offenders violate the Eighth Amendment’s ban on cruel and unusual punishment. Miller
v. Alabama, 567 U.S. 460, 465 (2012).

After Miller, qualifying juvenile homic ide

offenders could challenge the duration of their confinement as unconstitutional by a writ
of habeas corpus under 28 U.S.C. § 2254(a) (2018). 1
In 2013, Thompson filed a petition for a writ of habeas corpus with the United States
District Court for the District of Minnesota, claiming that he was incarcerated in violatio n
of the Constitution. 2 He asked the federal district court to “[r]everse the sentence imposed ”

1

Under 28 U.S.C. § 2254(a), “a person in custody pursuant to the judgment of a State
court” can file a petition for writ of habeas corpus in federal court “on the ground that he
is in custody in violation of the Constitution or laws or treaties of the United States.”
Although the writ was used at common law to secure immediate release from confineme nt,
it is no longer so limited. Now, “the writ is [also] available . . . to attack future confine me nt
and obtain future releases.” Preiser v. Rodriguez, 411 U.S. 475, 487 (1973); see also
Peyton v. Rowe, 391 U.S. 54, 64–65 (1968).
2

Thompson filed a federal habeas petition rather than a state postconviction petitio n
because of our decision in Chambers v. State, 831 N.W.2d 311 (Minn. 2013). In
Chambers, we held that Miller was not retroactive for offenders like Thompson, whose

3

5a
and remand to the state district court for resentencing. The federal district court dismis sed
the petition and the United States Court of Appeals for the Eighth Circuit affir med.
Thompson v. Roy, No. 13-CV-1524 (PJS/JJK), 2014 WL 1234498, at *2 (D. Minn. Mar.
25, 2014), aff’d, 793 F.3d 843 (8th Cir. 2015), cert. granted, judgment vacated, ___ U.S.
___, 136 S. Ct. 1375 (2016). Thompson petitioned for certiorari to the United States
Supreme Court.
While Thompson’s petition was pending, the Supreme Court held that the rule
announced in Miller applies retroactively.

Montgomery v. Louisiana, ___ U.S. ___,

136 S. Ct. 718, 732 (2016); see also Jackson v. State, 883 N.W.2d 272, 274 (Minn. 2016)
(acknowledging that Montgomery “holds that the Miller rule applies retroactively”). The
Court remanded Thompson’s case to the Eighth Circuit for reconsideration in light of
Montgomery, 136 S. Ct. at 1375, and the Eighth Circuit remanded to the federal district
court, Thompson v. Roy, 641 F. App’x 681, 682 (8th Cir. 2016).
On remand, a federal magistrate judge recommended that Thompson’s petition for
a writ of habeas corpus be granted in part and denied in part. More specifically, the
magistrate judge recommended that the sentence vacatur be “limited” to the “witho ut
possibility of release provision” of Thompson’s sentences, as opposed to “a complete
reversal of [his] sentences.”

Thompson v. Roy, No. 13-CV-1524 (PJS/HB), 2016 WL

7242566, at *2 (D. Minn. Nov. 23, 2016), adopted by 2016 WL 7231599 (D. Minn. Dec.

direct appeals were final at the time Miller was decided. Id. at 331. That holding was later
overruled by Montgomery v. Louisiana, ___ U.S. ___, 136 S. Ct. 718 (2016); see Jackson
v. State, 883 N.W.2d 272, 278–79 (Minn. 2016) (explaining that Montgomery “overruled
our retroactivity analysis from Chambers”).
4

6a
14, 2016). After conducting a de novo review of the record, the federal district court
adopted the magistrate judge’s report and recommendation “in its entirety,” vacated the
“without possibility of release” provision of Thompson’s sentences, remanded to Hennepin
County District Court for resentencing, and denied the petition “in all other respects.”
Thompson, 2016 WL 7231599, at *1.
A hearing before the Hennepin County District Court was scheduled. The district
court deferred the hearing because of our pending decisions in State v. Ali, 895 N.W.2d
237 (Minn. 2017), cert. denied, ___ U.S. ___, 138 S. Ct. 640 (2018) and Flowers v. State,
907 N.W.2d 901 (Minn.), cert. denied, ___ U.S. ___, 139 S. Ct. 194 (2018). After we
decided Ali and Flowers, the district court ordered the parties to file supplemental briefs
addressing whether a hearing was required on the issue of whether the sentences should be
served consecutively.
After discussing federal habeas corpus principles, federal and state case law on
juvenile offender sentencing, and the federal district court order, the district court
concluded that the federal district court had ordered a limited remand and therefore
determined that a hearing on the issue of whether the sentences should be served
consecutively was beyond the scope of the remand order. The district court cancelled all
further hearings, mooted all pending motions, and, without a resentencing hearing, revised

5

7a
Thompson’s sentence to two consecutive terms of life with the possibility of release after
30 years. 3 This appeal followed.
ANALYSIS
This case presents two issues. First, whether the district court erred in conclud ing
that the language of the federal district court order indicated a limited remand. Second,
whether the district court abused its discretion in concluding that the issue of whether
Thompson’s sentences should be served consecutively was beyond the scope of the remand
order. We consider each issue in turn.
I.
We have previously said that trial courts generally have “broad discretion to
determine how to proceed on remand.” Dobbins v. State, 845 N.W.2d 148, 156 (Minn.
2013) (citing Janssen v. Best & Flanagan, LLP, 704 N.W.2d 759, 763 (Minn. 2005). But
we have also said that, “[o]n remand, it is the duty of the district court to execute the
mandate of [the remanding court] strictly according to its terms.” State v. Roman Nose,
667 N.W.2d 386, 394 (Minn. 2003). These statements reflect the distinction between two
types of remand: general and limited.
The distinction between general and limited remands is well recognized in the
federal courts. For example, in United States v. Campbell, the United States Court of
Appeals for the Sixth Circuit explained that:

3

The parties do not dispute that the district court acted within its authority in revising
Thompson’s two LWOR sentences to two terms of life with the possibility of release after
30 years.
6

8a
Remands . . . can be either general or limited in scope. Limited remands
explicitly outline the issues to be addressed by the district court and create a
narrow framework within which the district court must operate. General
remands, in contrast, give district courts authority to address all matters as
long as remaining consistent with the remand.
168 F.3d 263, 265 (6th Cir. 1999) (internal citation omitted); see also United States v.
Walker, 918 F.3d 1134, 1144 (10th Cir. 2019) (discussing general and limited remands);
United States v. Malki, 718 F.3d 178, 182–83 (2nd Cir. 2013) (same); United States v.
Young, 66 F.3d 830, 835–37 (7th Cir. 1995) (same); United States v. Klump, 57 F.3d 801,
803 (9th Cir. 1995) (“This court’s remand was general, not limited.”). “A general remand
permits the district court to redo the entire sentencing process, including considering new
evidence and issues.” United States v. McFalls, 675 F.3d 599, 604 (6th Cir. 2012). “A
limited remand, by comparison, does not allow a de novo resentencing and instead
constrains the district court’s authority to the issue or issues adjudicated.” Id.
According to the federal courts, the issue of whether a remand order is general or
limited is a legal question that is reviewed de novo. See, e.g., United States v. Watson,
189 F.3d 496, 500 (7th Cir. 1999) (“The scope of the remand is a question of law that we
review de novo.”). When determining whether a remand is general or limited, federal
courts consider the remand language in the context of an entire opinion or order. See
Campbell, 168 F.3d at 266–67; United States v. Parker, 101 F.3d 527, 528 (7th Cir. 1996)
(“[T]he scope of the remand is determined not by formula, but by inference from the
opinion as a whole.”). For example, in United States v. Patterson, the United States Court
of Appeals for the Eighth Circuit concluded that a remand was limited because the opinio n
as a whole focused solely on one aspect of sentencing. 147 F.3d 736, 737 (8th Cir. 1998).
7

9a
Although we have not previously used the terms “general” and “limited” when
discussing remand orders, our statements in Dobbins and Roman Nose implicitly reflect
the well-reasoned distinction between general and limited remands drawn by the federal
appellate courts. We are also persuaded that the issue of whether a remand order is general
or limited is a legal question that should be reviewed de novo.
Having clarified the relevant legal standards, we turn to the language of the federal
district court’s remand order to determine whether it involved a general or limited remand.
The federal district court order adopted the magistrate judge’s report and recommendatio n
“in its entirety.” The report recommended that the sentence vacatur be “limited” to the
“without possibility of release provision” of Thompson’s sentences, as opposed to “a
complete reversal of [his] sentences.” It would be unreasonable to read this language as
suggesting that the federal district court vacated Thompson’s sentences in their entirety or
remanded for de novo resentencing.

Consequently, the district court did not err in

concluding that the language of the federal district court order indicated a limited remand.
II.
We next consider whether the district court abused its discretion when it concluded
that the issue of whether Thompson’s sentences should be served consecutively was
beyond the scope of the remand order. For the reasons that follow, we conclude that there
was no abuse of discretion.
When a remand is limited, it is the duty of the district court to execute the mandate
of the remanding court strictly according to its terms. Roman Nose, 667 N.W.2d at 394;
see McFalls, 675 F.3d at 604 (stating that a limited remand “does not allow a de
8

10a
novo resentencing and instead constrains the district court’s authority to the issue or issues
adjudicated”). Here, the remand order was limited to the singular issue of the possibility
of release. 4

Consequently, the district court’s limited revision of the sentences from

LWOR to life with the possibility of release after 30 years—without reconsidering the issue
of whether the sentences should be consecutive—was not an abuse of discretion. 5
CONCLUSION
For the foregoing reasons, we affirm the decision of the district court.
Affirmed.

4

The issue of whether Thompson’s sentences should be consecutive is not inhere ntly
bound to the possibility-of-release issue. Although two consecutive life sentences with the
possibility of release may, in some cases, amount to de facto life without the possibility of
release, “[t]he United States Supreme Court has not held that the Miller/Montgomery rule
applies to sentences other than life imprisonment without the possibility of parole.”
Flowers, 907 N.W.2d at 906.
5

The substantive issue of whether Thompson’s consecutive sentences are
commensurate with his culpability and criminality under the standard articulated in State
v. Warren, 592 N.W.2d 440, 451–52 (Minn. 1999), is not properly before us. Nothing in
our decision today forecloses Thompson from seeking otherwise available relief under the
Minnesota postconviction statute, Minn. Stat. § 590.01 (2018).
9

11a
CONCURRENCE
CHUTICH, Justice (concurring).
I agree that the language of the federal district court order reflected a limited remand
and, therefore, the issue of whether Thompson’s sentences should be served consecutive ly
was beyond the scope of the remand.

But as the court acknowledges, nothing in our

decision today forecloses Thompson from seeking otherwise available relief under the
Minnesota postconviction statute. I write separately to affirm two key legal principles that
pertain to the validity of Thompson’s sentences: (1) truth and fairness are best discovered
by powerful statements on both sides of a question and (2) children are constitutiona lly
different from adults in their level of culpability.
I.
Our adversarial system “is premised on the well-tested principle that truth—as well
as fairness—is best discovered by powerful statements on both sides of the question. ”
Penson v. Ohio, 488 U.S. 75, 84 (1988) (citations omitted) (internal quotation marks
omitted).

We jealously guard the protections created by the adversarial process in

sentencing because a criminal “defendant has a legitimate interest in the character of the
procedure which leads to the imposition of sentence even if he may have no right to object
to a particular result of the sentencing process.” Gardner v. Florida, 430 U.S. 349, 358
(1977).
Here, as the majority recognizes, the district court did not order a presentence
investigation or hear any argument on the issue of consecutive sentencing before imposing
two consecutive sentences of life without the possibility of release upon Thompson, who
C-1

12a
was 17 years old when he committed the crimes. Useful arguments on both sides of the
consecutive-sentencing question were not presented in Thompson’s first sentencing
hearing because, as a practical matter, a defendant can only serve one sentence of life
without the possibility of release before he or she dies. Under the law applicable at that
time, whether the two sentences were imposed consecutively or concurrently did not matter
one whit.
But now that the United States Supreme Court has announced a new substantive
rule that applies retroactively to Thompson, see Montgomery v. Louisiana, ___ U.S. ___,
136 S. Ct. 718, 734 (2016), the consecutive nature of Thompson’s life sentences may well
be affected by the currently developing jurisprudence. Without presaging any particular
result, under the unique circumstances of this case, I believe that providing the parties an
opportunity to present “powerful statements” regarding the factors set forth in State v.
Warren, 592 N.W.2d 440, 451–52 (Minn. 1999), is necessary to preserve the adversaria l
process that is the bedrock of our criminal justice system and to provide procedural fairne ss
to Thompson.
II.
Another vital legal principle is relevant to Thompson’s sentencing. As I explained
in State v. Ali, 895 N.W.2d 237, 248–54 (Minn. 2017) (Chutich, J., dissenting), the
principle that children are constitutionally different from adults in their level of culpability
is firmly established by a line of decisions of the United States Supreme Court. Beginning
with Roper v. Simmons, 543 U.S. 551 (2005), these decisions culminated in a substantive
rule that prohibits a court from sentencing a juvenile to life without the possibility of release
C-2

13a
unless the court determines that he or she belongs to “the rarest of juvenile offenders, those
whose crimes reflect permanent incorrigibility.” Montgomery v. Louisiana, ___ U.S. ___,
136 S. Ct. 718, 734 (2016).
I acknowledge that the United States Supreme Court has not yet expressly extended
this substantive rule to juveniles who receive a series of consecutive sentences that are the
functional equivalent of life without the possibility of release. But in my view, such silence
does not justify inaction when the underlying principles and logic of the RoperMontgomery line of cases apply with equal strength to a sentence that is the practical
equivalent of life without parole. Accordingly, I believe that the Eighth Amendment of the
United States Constitution prohibits a court from sentencing a juvenile to consecutive
sentences of life with the possibility of release after 30 years unless the court determines
that he or she belongs to the rarest of juvenile offenders—those whose crimes reflect
permanent incorrigibility.
Other courts recognize this principle. For example, in State v. Zuber, the New Jersey
Supreme Court held that the force and logic of the concerns discussed

in the

Roper-Montgomery line of cases “apply broadly: to cases in which a defendant commits
multiple offenses during a single criminal episode; to cases in which a defendant commits
multiple offenses on different occasions; and to homicide and non-homicide cases.”
152 A.3d 197, 212 (N.J. 2017). As part of its analysis, the New Jersey Supreme Court
explained that the “proper focus belongs on the amount of real time a juvenile will spend
in jail and not on the formal label attached to his sentence.” Id. at 201. Accordingly, it
extended the Roper-Montgomery line of cases to a juvenile homicide defendant who
C-3

14a
received an aggregate sentence of 75 years in prison and would not be eligible for parole
until he was 85 years old. Id. at 204, 214.
In sum, I agree that the issue of whether Thompson’s sentences should be served
consecutively was beyond the scope of the remand in this case. But because Thompso n
may seek otherwise available relief under the Minnesota postconviction statute, I write
separately to reaffirm two critical legal principles that apply to Thompson’s sentences.
Accordingly, I respectfully concur.

ANDERSON, Justice (concurring).
I join in Part I of the concurrence of Justice Chutich.

THISSEN, Justice (concurring).
I join in the concurrence of Justice Chutich.

C-4

APPENDIX B
State of Minnesota
Fourth Judicial District
District Court
Hennepin County
_________
STATE OF MINNESOTA,
Plaintiff,
v.
STAFON EDWARD THOMPSON,
Defendant.
________
Resentencing Order
[Filed March 26, 2019]
________
(15a)

16a

STATE OF MINNESOTA

DISTRICT COURT

COUNTY OF HENNEPIN

FOURTH JUDICIAL DISTRICT

State of Minnesota,
Plaintiff,

RESENTENCING ORDER

v.

27-CR-08-29634

Stafon Edward Thompson,
Defendant.

This matter came before the undersigned Judge of District Court on February 25, 2019 in
response to an order requesting briefing on the appropriate scope of Mr. Thompson’s
resentencing. The State is represented by Assistant Hennepin County Attorneys Mark Griffin and
Theresa White. Mr. Thompson is represented by Rachel Moran, Esq. and student attorneys
Joseph Cavello and Krista Chaska.
This order addresses the scope of the Court’s consideration of the remand from the
United States District Court for the District of Minnesota to resentence Mr. Thompson for his
role in the murder of two individuals in 2008. The remand was the result of changes in the
United States Supreme Court’s interpretation of constitutional protections for youthful offenders
sentenced to mandatory life-without-the-possibility-of-release sentences. Both Mr. Thompson
and his co-defendant, Brian Flowers, are coming before the Court for the identical sentences
they received for the same offenses. But each case took a different route to this Court. In the
end, this Court’s review is limited by the manner in which the case reaches this Court.
FINDINGS OF FACT:
1.
Stafon Thompson and Brian Flowers were charged on June 13, 2008 with two
counts of Aiding and Abetting First-Degree Premeditated Murder and two counts of Aiding and
Abetting First-Degree Murder while Committing Aggravated Robbery for the deaths of Katricia
Daniels and her 10-year-old son, Robert Shepard. Mr. Thompson was seventeen at the time and
Mr. Flowers was sixteen.
2.
In early 2009, Mr. Thompson was convicted, and sentenced to two consecutive
mandatory terms of life in prison without the possibility of release by Judge Mark Wernick. The

Resentencing Order (March 26, 2019)
27-CR-08-29634
Page 1 of 10

17a
life sentences without the possibility of parole were the required minimum sentences at the
time; 1 the sentences were presumptively concurrent, but permitted to be consecutive. 2
3.
Mr. Thompson appealed his conviction to the Minnesota Supreme Court on four
3
grounds. He claimed the trial court erred in admitting certain statements made to police and
computer-generated images of the crime scene. He also claimed he received ineffective
assistance because his trial counsel did not interview certain witnesses or administer polygraph
tests. Finally, Mr. Thompson claimed a life sentence without the possibility of release for a 17year-old was cruel and unusual punishment. The Minnesota Supreme Court rejected his
arguments, affirmed his conviction, and upheld his sentence, rendering his sentence final in
2010.
Federal Proceedings and Case Law Developments
4.
In 2012, the United States Supreme Court held in Miller v. Alabama, 4 sentencing
juveniles to life without parole violates the Eighth Amendment prohibition on cruel and unusual
punishment in most circumstances. Miller does not categorically bar such sentences, but
requires a certain process to be followed before imposing a sentence of life without parole. 5
Mainly, a hearing must be held to consider alternative sentences in light of the offender’s youth
and other characteristics. At the time, the Supreme Court did not reach the issue of whether
Miller should be applied retroactively.
5.
Lacking federal guidance, the Minnesota Supreme Court held in 2013 the decision
in Miller was a new procedural—rather than substantive—rule, and, therefore, should not be
applied retroactively. 6 Consequently, Mr. Thompson lacked any further state remedies, and he
filed a habeas petition claiming a singular ground for relief; his mandatory sentence of life
imprisonment without parole violated the Eighth Amendment. 7 To remedy the infringement of
his rights, Mr. Thompson asked the court to “[r]everse the sentence imposed and remand [his]
case to the Minnesota district court for resentencing.” 8 Nowhere in the petition does Mr.
Thompson mention the consecutive nature of his sentences.
6.
In 2014, the petition came before The Honorable Patrick J. Schiltz, on the report
and recommendation of United States Magistrate Judge Jeffrey Keyes. 9 Judge Schiltz adopted
1

Minnesota Statute § 609.185 (2008).
Minnesota Sentencing Guidelines Commission, Minnesota Sentencing Guidelines and Commentary, 68-69
(Updated August 1, 2008).
3
State v. Thompson, 788 N.W.2d 485 (Minn. 2010).
4
567 U.S. 460 (2012).
5
Id. at 482.
6
Chambers v State, 831 N.W.2d 311 (2013).
7
Thompson Petition (Exhibit B), pg. 6.
8
Id. at 16.
9
Thompson v. Roy, 13-CV-1524 (PJS/JJK) (March 25, 2014). (Exhibit C).
2

Resentencing Order (March 26, 2019)
27-CR-08-29634
Page 2 of 10

18a
the recommendation to deny the petition but certify the question of whether Miller should apply
retroactively. 10 Mr. Thompson appealed the question to the Eighth Circuit Court of Appeals, and
was again denied relief in July of 2015. 11 Like the Minnesota Supreme Court, the Eighth Circuit
found Miller to be a procedural rule and not applicable retroactively. Mr. Thompson appealed to
the Supreme Court of the United States.
7.
A few months after the Eighth Circuit denial of Mr. Thompson’s appeal, the
Supreme Court heard oral arguments on the retroactive application of Miller in Montgomery v.
Louisiana. 12 The Supreme Court held Miller did, indeed, establish a new substantive
constitutional rule of law and should be applied retroactively. 13 Shortly thereafter, the Supreme
Court granted Mr. Thompson’s petition for a writ of certiorari and remanded the case to the
Eighth Circuit for further proceedings in light of Montgomery. 14 The Eighth Circuit followed suit,
vacating the earlier opinion and remanding the case to the United States District Court of
Minnesota to reconsider Mr. Thompson’s habeas petition anew. 15
Writ of Habeas Corpus Order & Remand
8.
On remand and reconsideration, Judge Magistrate Hildy Bowbeer recommended,
and Judge Patrick Schiltz later issued, the following order:
Stafon Edward Thompson's Petition under 28 U.S.C. § 2254 for a Writ of Habeas
Corpus [Doc. No. 1] be GRANTED IN PART and DENIED IN PART as follows:
1.
The “without possibility of release” provision of Petitioner's life
sentences be VACATED in accordance with Miller v. Alabama, 132 S. Ct. 2455,
2460 (2012), and Montgomery v. Louisiana, 136 S. Ct. 718, 725 (2016);
2.
Petitioner's case be REMANDED to the Hennepin County District
Court for resentencing; and
3.

The petition be denied in all other respects. 16

10

Id.
Thompson v. Roy, 793 F.2d 842 (2015).
12
136 S.Ct. 718. Argued on October 13, 2015.
13
Id.
14
Thompson v. Roy, 136 S.Ct. 1375 (Memo) (2016).
15
Thompson v. Roy, 641 Fed.Appx. 681 (Mem) (2016).
16
Thompson v. Roy, 2016 WL 7242566 (2016).
11

Resentencing Order (March 26, 2019)
27-CR-08-29634
Page 3 of 10

19a
9.
Judge Bowbeer noted the parties agreed Mr. Thompson’s “mandatory sentences
of life in prison without the possibility of parole are contrary to clearly established federal law.” 17
There is no mention of the consecutive nature of his sentences nor a discussion of the
constitutionality of such sentences.
10.
The recommendation recommended the limited vacatur for the same reasons
expressed in Martin v. Smith. 18 Mr. Martin was convicted of Murder in the First Degree and
Crime Committed for the Benefit of a Gang. He was 17-years-old at the time of the offense in
2006. Subsequent to Miller, Montgomery, and State v. Ali 19, Mr. Martin’s habeas petition was
granted in part and denied in part. After initially vacating Mr. Martin’s sentence “in accordance
with Miller v. Alabama and Montgomery v. Louisiana,” 20 the court revised the order to say “The
‘without release’ provision of Petitioner’s life sentence is vacated in accordance with Miller v.
Alabama and Montgomery v. Louisiana.” In its Amended Order in Martin, the court clarified its
position, addressing both the unintended negative penal consequences of the misinterpretation
of the order and the meaning of the original order:
As the original order made clear, Petitioner’s sentence is vacated in accordance
with Miller v. Alabama, 132 S. Ct. 2455 (2012). Miller held that a juvenile could
not be sentenced to mandatory life without the possibility of parole. 132 S. Ct. at
2475. Rather, a judge or jury needed to consider the specific circumstances of a
case before imposing such a sentence. Id. Miller did not categorically disallow
sentencing juveniles to life without parole or to life in general. Id.; see United
States v. Jefferson, 816 F.3d 1016, 1018 (8th Cir. 2016) (“The Court in Miller did
not hold that the Eighth Amendment categorically prohibits imposing a sentence
of life without parole on a juvenile offender.”). This Court’s original order
vacating Petitioner’s sentence in accordance with Miller did not vacate his “entire
life sentence.” However, to avoid any negative consequences to Petitioner
stemming from MNDOC’s “interpretation” otherwise, the Court amends its order
to explicitly narrow the vacatur. 21
11.
Following the remand of Mr. Thompson’s matter to the Hennepin County District
Court, the case was assigned to Judge Kerry Meyer. On February 1, 2017, Judge Meyer ordered
Mr. Thompson’s resentencing to be deferred until after the Minnesota Supreme Court decision
in State v. Ali, on the joint agreement of the parties. 22 After Ali was decided in May 2017, the
State Public Defender’s office requested an additional deferment until after the Supreme Court
decided whether or not to accept certiorari of Ali. 23 The Court granted the deferment and
17

Id.
0:10-cv-4753-SRN-TNL.
19
855 N.W.2d 235 (Minn. 2014).
20
Citations omitted.
21
0:10-cv-04753-SRN-TNL, Document 56, pg. 1.
22
Order, dated February 1, 2017.
23
Correspondence signed by Benjamin Butler, dated July 28, 2017.
18

Resentencing Order (March 26, 2019)
27-CR-08-29634
Page 4 of 10

20a
further extended it to allow for an appeal to be heard on the appeal of Mr. Flowers’
resentencing.
12.
Mr. Flowers’ resentencing was remanded to the Hennepin County District Court,
and assigned to this Court. With the agreement of both Mr. Thompson and Mr. Flowers, in an
attempt to bring both co-defendants under the same judge, Mr. Thompson’s resentencing was
re-assigned to this Court. 24 The parties participated in a joint status conference on November
26, 2018, where Mr. Thompson was represented by the Hennepin County Public Defenders’
Office. Shortly thereafter, Mr. Thompson filed a petition to substitute counsel from the
University of St. Thomas Law School clinic. The Court granted the motion and held a new status
conference with the State and Mr. Thompson’s counsel on January 22, 2019. Parties and the
Court discussed scheduling and the potential need for expert witness funds.
13.
In preparation for the anticipated need for expert witness funds, this Court more
closely reviewed the record and the limited vacatur order from Judge Schiltz. In response to this
research, the Court ordered briefing on the appropriate scope of Mr. Thompson’s resentencing.
Argument of the Parties
14.
Mr. Thompson argues the Court should undertake a full hearing exploring the
culpability and criminality of Mr. Thompson, in line with the decision in Flowers v. State. 25 He
relies on a number of theories to support his assertion. First, he argues the limited vacatur order
does not limit this Court’s authority to consider concurrent or consecutive sentences. Next, he
presents two equitable. First, the parties and District Court have acted as if a full resentencing
hearing would take place, so it would be unfair to proceed otherwise. Second, his co-defendant,
Mr. Flowers, is required to have full resentencing hearing under Warren, so it would be unfair to
treat the two defendants differently. Finally, Mr. Thompson argues both Warren and Ali require
an examination of an array of factors relating to the defendant’s culpability and criminality
before imposing consecutive sentences.
15.
The State argues Judge Schuiltz’s limited vacatur order should be interpreted to
allow only the change of Mr. Thompson’s sentence from consecutive life sentences without the
possibility of release to consecutive life sentences with the possibility of release. Further, the
State argues Mr. Thompson is barred from raising the consecutive nature of his sentences in
state court proceedings anew due to Mr. Thompson’s failure to bring the issue on direct appeal.
Coupled with the limited scope of Miller as the basis for the federal court action, the State
argues this Court is severely limited in how it may proceed.

24
25

Notice of Case Reassignment, dated November 7, 2018.
907 N.W.2d 901.

Resentencing Order (March 26, 2019)
27-CR-08-29634
Page 5 of 10

21a
CONCLUSIONS OF LAW:
16.
The task before the Court is to interpret and carry out Judge Schiltz’s order. In
doing so, the Court looks to the purpose of the federal habeas corpus petition, the role and duty
of the District Court in carrying out an order to remand, and the language of Judge Schiltz’s
order.
Purpose of Federal Habeas Proceedings
17.
The purpose of federal habeas corpus relief is to address the violation of a stateprisoner’s constitutional rights. 26 Such relief is warranted in three situations: (1) when a state
court decision was contrary to established federal law; (2) when a state court decision involved
an unreasonable application of established federal law; or (3) when a state court decision was
based on unreasonable determination of facts. 27 “Contrary to” established federal law means
either the state court applies a rule contradicting the governing federal precedent or the state
court “confronts a set of facts that are materially indistinguishable” from a Supreme Court case
and arrives at a different result. 28
18.
As stated in Judge Bowbeer’s recommendation, Miller was the basis for Mr.
Thompson’s habeas petition. Miller announced a requirement for hearings before juveniles
could be sentenced to life without the possibility of release sentences. 29 Here, as the federal
courts point out, Mr. Thompson was not afforded such a hearing under Minnesota’s mandatory
sentencing guidelines. 30 Further, the Supreme Court held in Montgomery the Miller rule should
be applied retroactively to those sentenced for juvenile crimes to life without possibility of
release. The federal courts and parties all agree Mr. Thompson’s sentence must be amended to
“with the possibility of release.”
19.
In Miller/Montgomery the Supreme Court limited its holdings to the issue of
release. At this point in time, the Supreme Court has yet to address in any case the issue of
whether consecutive sentences of life with the possibility of release for juvenile offenders
violates the Eighth Amendment. Lacking any further direction, the Minnesota Supreme Court
has refused to extend the Miller/Montgomery rule to multiple consecutive sentences of life with
the possibility of release. 31 This issue has not been addressed in either state or federal law, as
recognized by Justice Chutich in her Flowers concurrence, recognizing it as an “open question” of
law both federally and in Minnesota. 32 Because the Minnesota Supreme Court—the highest
26

28 U.S.C. § 2554(a).
28 U.S.C. § 2254(d)(1), (2).
28
Williams v. Taylor, 592 U.S. 362, 405-06 (2000).
29
Miller.
30
Minnesota Sentencing Guidelines (2008).
31
Ali II, 895 N.W.2d 237, 246 (2018).
32
“I write separately to emphasize that it is an open question whether the United States Supreme Court will apply
its 126 year-old dictum in O'Neil v. Vermont, 144 U.S. 323, 331, 12 S.Ct. 693, 36 L.Ed. 450 (1892), to
27

Resentencing Order (March 26, 2019)
27-CR-08-29634
Page 6 of 10

22a
court of this State, which this court must follow—has specifically not taken action to find
consecutive life-with-possibility-of-release sentences for juvenile offenders is included within the
ambit of Miller/Montgomery, it would be improper for this Court to do so.
20.
The unsettled nature of the law leaves the consecutive-versus-concurrent debate
unreachable by a federal habeas petition. Habeas petitions can only be granted when an
established rule of law or precedent is violated. Logically, without a federal precedent on the
issue of consecutive versus concurrent sentences, a habeas petition could not be granted on
such grounds.
21.
The next point of inquiry is whether or not a habeas petition granted on different
grounds allows this Court to reopen the entire sentencing package, given the limited vacatur.
Role and Duty of District Court
22.
Courts hold no inherent power to modify sentences. 33 “A [district] court's duty
on remand is to execute the mandate of the remanding court strictly according to its terms.” 34
Though a district court may exercise broader discretion under the sentencing-package doctrine,
either as a result of a direct appeal or a collateral attack, 35 it cannot act in a way that is
“inconsistent with the remand instructions provided.” 36
23.
Here, the Court has no inherent authority to resentence Mr. Thompson, except as
37
instructed. The Court is limited in opening the sentencing package, removing the
a juvenile offender's Eighth Amendment challenge to consecutive sentences that are the functional equivalent of life
without the possibility of release. Tellingly, since the United States Supreme Court's landmark decision in Roper v.
Simmons, 543 U.S. 551, 569–73, 125 S.Ct. 1183, 161 L.Ed.2d 1 (2005) (acknowledging fundamental differences
between juveniles and adults), no state supreme court or federal circuit court has adopted the O'Neil dictum in
a juvenile sentencing case. (Footnote 1: In Ali II, 895 N.W.2d 237, we did not adopt the O'Neil dictum, which
discusses the issue of whether consecutive sentences should be viewed separately when conducting a
proportionality analysis under the Eighth Amendment. Instead, we held “that absent further guidance from the
Court, we will not extend the Miller/Montgomery rule to include ... juvenile offenders who are being sentenced for
multiple crimes, especially when ... the issue of whether consecutive sentences should be viewed separately when
conducting a proportionality analysis under the Eighth Amendment remains an open question.” Id. at 246).”
33
Reesman v. State, 449 N.W.2d 489, 490 (Minn. Ct. App. 1989)
34
Duffey v. Duffey, 432 N.W.2d 473, 476 (Minn.App.1988).
35
State v. Hutchins, 856 N.W.2d 281, 286 (Minn. Ct. App. 2014) “If the district court receives no specific instructions
as to how it must fulfill the remanding court's order, the district court has discretion to proceed in any manner
consistent with the remand order.”
36
Dobbins v. State, 845 N.W.2d 148, 156 (Minn. 2013)
37
Likewise, the Court holds no authority to resentence Mr. Flowers other than as directed on remand. The
difference between the two cases matters. Mr. Flowers came to the Court initially on remand from a fully-granted
federal habeas petition. Mr. Thompson’s federal habeas petition was only granted with a limited vacatur. After a
first attempt at Mr. Flower’s resentencing, the issue was appealed to the Minnesota Supreme Court and returned to
this Court on remand with further, specific instructions. Here, Mr. Thompson does not have such a specific order.
The Court expects this order to be appealed, and will properly follow any further instructions provided by the
Resentencing Order (March 26, 2019)
27-CR-08-29634
Page 7 of 10

23a
unconstitutional portion identified by the vacatur, and leaving the rest of the contents intact. It
cannot, sua sponte, tear open the package, move around everything found within, and attempt
to tape it back together. Given the specific instructions of the remand, the Court’s task is more
akin to a surgeon deftly opening the body, removing the offending portion, and suturing it back
together with as little damage as possible.
24.
The stark fact remains—Mr. Thompson was properly convicted of two heinous
murders and must be sentenced in line with such convictions and the Constitution. Here, Judge
Schiltz’s order provides specific instructions on how this Court must fulfill the remand order in
order to bring Mr. Thompson’s sentencing in line with the Constitution.
25.
The equitable argument by Mr. Thompson pointing to how the parties viewed the
breadth of the remand does not alter this legal determination. It is unfortunate it took as long as
it did to reach this point, but the legal roadmap requires this destination. This Court is bound by
the remand.
Judge Schiltz’s Order
26.
The parties do not dispute Judge Schiltz’s order controls the scope and context of
Mr. Thompson’s resentencing. Likewise, no one disputes the matter should be before the
District Court for resentencing. At the heart of the issue before the Court is the interpretation of
the limited vacatur: “The ‘without possibility of release’ provision of Petitioner's life sentences be
VACATED….The petition be denied in all other respects.” 38 Such language provides the Court
with two directions: (1) the limits upon the vacatur and resentencing; and (2) the limited grant of
the petition. Both are important in determining how to proceed.
27.
First, it is important to understand if Mr. Thompson’s petition is granted in full or
only in part. Mr. Thompson’s original prayer for relief requests the federal court to “[r]everse
the sentence imposed and remand Thompson’s case to the Minnesota district court for
resentencing.” The federal court did not fully grant the petition, but instead denied all relief
beyond the limiting instruction. It logically follows, if some part of the petition is denied, the
original prayer for relief cannot be fully granted. Mr. Thompson would like the Court to ignore
this portion of the order, and fully grant the petition without limit. The Court cannot do so.
28.
Next, the Court must identify the limited scope of relief. Judge Schlitz’s order
adopts Judge Bowbeer’s recommendation in its entirety. Her recommendation outlines the
constitutional issue regarding life sentences without the possibility of release, but does not
touch on the consecutive nature of the sentences. It does provide some guidance in its
reference to the similar order in Martin. While the opinion in Martin does discuss the
Minnesota Supreme Court regarding how to proceed if the Supreme Court decides to address the consecutiveversus-concurrent sentences within the context of Miller, Montgomery, or another legal doctrine.
38
Supra ⁋ 8.
Resentencing Order (March 26, 2019)
27-CR-08-29634
Page 8 of 10

24a
unintended penal consequences of the original order, as Mr. Thompson suggests, it does not
suggest the penal consequences were the only reason it was clarified or that the clarification
undermined the intended meaning of the original order. Rather, it clarifies the original order
“did not vacate his ‘entire life sentence.’” 39 Given the strong reliance on Martin as the reason
for the limited vacatur, it is proper to infer Judge Schiltz’s order should also be understood as not
vacating Mr. Thompson’s entire life sentences, but only the “without possibility of release”
portion thereof.
29.
Further, the plain language of the order provides only for a limited vacatur. The
plain language and more contextual analysis of the order both support the same outcome, the
Court finds Judge Schiltz’s order does provide specific instruction limiting the resentencing to the
singular issue of the “possibility of release.”
30.
Thus, before the Court is left only the remaining question of whether or not Mr.
Thompson should be sentenced to two consecutive life sentences with or without the possibility
of release. The State has not made a motion, requested a hearing, or made any indication it
seeks to establish Mr. Thompson is “of the rare sort of juvenile offender” 40 deserving of a life
without the possibility of release sentence. Thus, in line with Judge Schiltz’s limited vacatur
order, the Court revises Mr. Thompson’s sentence from two consecutive terms of life without
the possibility of release to two consecutive terms of life with the possibility of parole after 30
years. 41
Now, therefore,

IT IS ORDERED:

1.

Mr. Thompson’s resentencing is restricted to the issue of life without the
possibility of release.

2.

Mr. Thompson is sentenced to two life sentences with the possibility of release
after 30 years, to be served consecutively.

3.

All further hearings in this matter are cancelled, and all pending motions deemed
moot.

39

Martin order.
Miller.
41
The Minnesota Supreme Court has found the appropriate remedy for juveniles sentenced to life without release is
sentencing under the revival of the constitutional, 2004 sentencing-statute—life with the possibility of release after
30 years. State v. Ali, 855 N.W.2d 235, 267 (Minn. 2014). Consistent with the logic of the later State v. Ali, Mr.
Thompson would be eligible for release after 60 years. 895 N.W.2d 237, 241 (Minn. 2017), cert. denied sub nom. Ali
v. Minnesota, 138 S. Ct. 640, 199 L. Ed. 2d 543 (2018) (finding Mr. Ali would be eligible for release after 90 years as a
result of three consecutive life with the possibility of release sentences).
40

Resentencing Order (March 26, 2019)
27-CR-08-29634
Page 9 of 10

25a
BY THE COURT

DATED: March 26, 2019

Resentencing Order (March 26, 2019)
27-CR-08-29634
Page 10 of 10

___________________________________
William H. Koch
Judge of District Court

APPENDIX C
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
_________
STAFON EDWARD THOMPSON,
Petitioner,
v.
TOM ROY, Minnesota Commissioner of Corrections,
Respondent.
________
Order Adopting Report and Recommendation
[FILED DECEMBER 14, 2016]
(26a)

CASE 0:13-cv-01524-PJS-HB Document 37 Filed 12/14/16 Page 1 of 2
27a

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA

Stafon Edward Thompson,

Case No. 13-cv-1524 (PJS/HB)

Petitioner,
v.

ORDER

Tom Roy, Minnesota Commissioner of
Corrections,
Respondent.

Benjamin J. Butler, Office of the Minnesota Appellate Public Defender, 540 Fairview
Avenue North, Suite 300, St. Paul, MN 55104, for Petitioner
J. Michael Richardson and Jean E. Burdorf, Hennepin County Attorney’s Office, 300
South 6th Street, Suite C-2000, Minneapolis, MN, for Respondent

PATRICK J. SCHILTZ, United States District Judge
This matter comes before the Court on the Report and Recommendation (“R&R”)
dated November 23, 2016, of United States Magistrate Judge Hildy Bowbeer. Pursuant
to 28 U.S.C. § 636(b)(1), the Court has conducted a de novo review of the record and will
adopt the R&R in its entirety. Accordingly, Stafon Edward Thompson’s Petition Under
28 U.S.C. § 2254 for a Writ of Habeas Corpus [Doc. No. 1] is GRANTED IN PART
and DENIED IN PART as follows:
1. The “without possibility of release” provision of Petitioner’s life sentences are
VACATED in accordance with Miller v. Alabama, 132 S. Ct. 2455, 2460 (2012),
and Montgomery v. Louisiana, 136 S. Ct. 718, 725 (2016);

CASE 0:13-cv-01524-PJS-HB Document 37 Filed 12/14/16 Page 2 of 2
28a

2. Petitioner’s case is REMANDED to the Hennepin County District Court for
resentencing; and
3. The petition is denied in all other respects.

LET JUDGMENT BE ENTERED ACCORDINGLY.

Dated: 12/14/16

s/Patrick J. Schiltz
PATRICK J. SCHILTZ
United States District Judge

2

APPENDIX D
MINNESOTA SUPREME COURT
_________
STATE OF MINNESOTA,
Respondent,
v.
STAFON EDWARD THOMPSON,
Appellant.
________
Excerpt from Mr. Thompson’s Minnesota Supreme Court Brief, Issue B, pp.
19-24
[FILED SEPTEMBER 9, 2020]
(29a)

30a

SUPREME COURT CASE #A19-0717
STATE OF MINNESOTA
IN MINNESOTA SUPREME COURT

STATE OF MINNESOTA,
Respondent
vs.
STAFON EDWARD THOMPSON,
Appellant

APPELLANT’S BRIEF AND ADDENDUM
ORAL ARGUMENT REQUESTED
HENNEPIN COUNTY ATTORNEY’S
OFFICE
Michael Freeman
Hennepin County Attorney
Mark Griffin
Senior Assistant County Attorney
Attorneys for Respondent
C-2000 Government Center
300 South 6th Street
Minneapolis, MN 55487
(612) 348-2146

UNIVERSITY OF ST. THOMAS
LEGAL SERVICES CLINIC
Rachel Moran*
Attorney for Appellant
30 South 10th Street Suite 100
Minneapolis, MN 55403-2009
(651) 962-4810
rmoran@stthomas.edu
#0399859

*University of St. Thomas School of Law students Kailey Meadows and Megan Kratzke,
as well as summer legal intern Lourdes Regules Verduzco, contributed research and
editing to this brief.

31a

Even more recently, when the trial court set aside three days for Stafon’s
resentencing hearing and ordered his counsel to submit motions for expert funding, neither
the State nor the court suggested that three days was too long, or that experts were
unnecessary because the federal court had already decided the terms of Stafon’s sentences.
(Docs. 25, 28, 31) The consistent behavior of all parties after the federal district court’s
2016 report confirms what the Martin decision already indicated: that the federal court
never intended to deny Stafon a resentencing hearing, and no one until January of 2019
understood it as doing so. The trial court erred in fixating on the last few paragraphs of the
report and interpreting them as precluding a resentencing hearing, rather than reading those
paragraphs in the context of the entire report and the parties’ joint request for a resentencing
hearing. This Court should reverse the trial court’s order and remand for a resentencing
hearing, with instructions that the trial court consider mitigating evidence before deciding
whether to impose concurrent or consecutive sentences.
B. The federal district court could not have mandated consecutive sentences,
because the federal habeas power does not authorize federal courts to
dictate the terms of state court sentences.
In denying Stafon’s request for a resentencing hearing, the trial court concluded that
the federal district court’s order barred such a hearing because the order vacated only the
“without possibility of release” portions of Stafon’s sentences. (Doc. 42 at 3, 8-9) The trial
court believed that the federal court’s order mandated two consecutive life sentences with
the possibility of release after a total of 60 years, and that it was bound to impose the new
sentences the federal court crafted. Id. at 7-9.

19

32a

The trial court’s reasoning was based on a mistaken understanding of federal habeas
law. Federal habeas corpus petitions provide a vehicle for limited federal court jurisdiction
over state convictions in which the petitioner alleges that the State is wrongly confining
him pursuant to an unconstitutional conviction or sentence. See 28 U.S.C. §2254(a); Fay
v. Noia, 372 U.S. 391, 430 (1963). The phrase “habeas corpus” derives from a Latin term
referencing custody over a person’s body, and that is literally what federal habeas petitions
are for: arguing that the State’s physical custody of the petitioner violates federal law. Fay,
372 U.S. at 430; see also BLACK’S LAW DICTIONARY (11th ed. 2019), “habeas corpus”
(translating the Latin term “habeas corpus” as “that you have the body”).
Fay is the United States Supreme Court’s seminal decision addressing the
boundaries of federal habeas authority over state criminal convictions. See 372 U.S. at 394
(“This case presents important questions touching the federal habeas corpus jurisdiction . .
. in its relation to state criminal justice.”). After a lengthy discussion regarding the history
of the habeas writ and federalism principles that favor deference to state courts, the Court
concluded that federal habeas jurisdiction did indeed extend to state prisoners. Id. at 399426. But that jurisdiction has limitations. On review of a habeas petition filed by a state
prisoner, the federal court’s authority is limited to agreeing or denying that the petitioner
is wrongly confined. Id. at 430-31. If the court agrees that the petitioner is wrongly
confined, it may order the State to either correct the unconstitutional sentence or release
the petitioner. Id. (federal habeas courts have the right to “enforce the right of personal
liberty [over state prisoners]; when that right is denied and a person confined, the federal
court has the power to release him.”); see also, e.g., Henderson v. Frank, 155 F.3d 159,
20

33a

168 (3d Cir. 1998) (ordering release of prisoner “conditioned on the state’s opportunity to
correct constitutional errors”); Brewer v. Williams, 430 U.S. 387, 406 n.13 (1977)
(suspending issuance of habeas writ until State had opportunity to correct constitutional
error).
What the federal court cannot do is correct the unconstitutional sentence itself, or
dictate how the State must correct the unconstitutional sentence. Fay, 372 U.S. at 430-31.
The Fay Court made this point explicitly, holding that while a federal habeas court can
order a state prisoner’s release, “it has no other power; it cannot revise the state court
judgment; it can act only on the body of the petitioner.” Id.; see also Preiser v. Rodriguez,
411 U.S. 475, 484 (1973) (“the essence of habeas corpus is an attack by a person in custody
upon the legality of that custody, and . . . the traditional function of the writ is to secure
release from illegal custody.”).
Courts continue to rely on Fay when analyzing the limited remedies a federal habeas
court can order in cases involving state prisoners. Shortly after Fay was decided, the Eighth
Circuit Court of Appeals cited Fay in reasoning that the federal habeas power over state
judgments is limited to “acting as to the restraint involved and not of dealing with the
judgment existing.” Waldon v. State of Iowa, 323 F.2d 852, 853 (8th Cir. 1963)
(emphasizing the sensitivity federal habeas courts must show with respect to state court
convictions).
The following decade, the Supreme Court in Preiser cited Fay for the proposition
that the purpose of a habeas petition is to “inquir(e) into illegal detention with a view to an
order releasing the petitioner.” 411 U.S. at 484 (quoting Fay, 372 U.S. at 399 n.5). Preiser
21

34a

held that habeas petitions are “the specific instrument to obtain release from [unlawful]
confinement.” 411 U.S. at 486. The Seventh Circuit subsequently relied on Preiser for the
principle that habeas corpus “is not a compensatory remedy. The object is not to make
whole someone who has suffered a loss; it is to determine whether a person is being
confined in violation of basic norms of legality.” See Allen v. Duckworth, 6 F.3d 458, 460
(7th Cir. 1993). Each of these cases reaffirm the Fay holding that federal habeas courts can
grant petitions and order prisoners’ conditional release, but they cannot fashion or mandate
a particular state court remedy for the constitutional error.
The Third Circuit’s subsequent decision in Henderson v. Frank elucidated Fay’s
restriction on federal habeas authority even more clearly. 155 F.3d 159 (3d Cir. 1998).
Henderson involved a state court prisoner who filed a meritorious habeas petition based on
the state’s failure to ensure a valid waiver of counsel at a suppression hearing. Id. at 162,
167. The parties disputed the proper habeas remedy for such a violation, and the court
began its analysis by “addressing the precise nature of federal court habeas corpus
jurisdiction over petitions emanating from criminal convictions in the state court system.”
Id. at 167. The court then cited Fay for the now-familiar proposition that habeas authority
is limited to ordering the prisoner’s release, and does not extend to revising the state court’s
judgment. Id. at 168 (quoting Fay, 372 U.S. at 430-31). Relying on Fay, the court
concluded that the “federal habeas power is limited, first, to a determination of whether
there has been an improper detention by virtue of the state court judgment; and second, if
we find such an illegal detention, to ordering the immediate release of the prisoner.”
Henderson, 155 F.3d at 168.
22

35a

Most recently, the Fourth and Fifth Circuits also reiterated the Fay holding that
federal habeas courts have no authority to modify the terms of a state court judgment. See
Winston v. Pearson, 683 F.3d 489, 507 (4th Cir. 2012); Woodfox v. Cain, 789 F.3d 565,
569 (5th Cir. 2015). In Winston, the Fourth Circuit addressed the proper remedy for a state
court prisoner who was improperly sentenced to death without effective assistance of
counsel. 683 F.3d at 492-93 (citing Henderson, 155 F.3d at 168). The Fourth Circuit held
that, after granting the habeas petition and holding the sentence unconstitutional, the
federal district court “had no authority to fashion a particular procedure to remedy” the
improper death sentence. 683 F.3d at 507. Instead, the court could only remand for
resentencing, and “leave it to the [State’s] prerogative to craft a remedy consonant with the
strictures of state law.” Id. at 507.
Woodfox involved a State appeal after a federal district court granted a state
prisoner’s habeas petition and took the rare step of ordering unconditional release without
giving the State an opportunity to correct its constitutional error. 789 F.3d at 567. Reversing
the federal district court’s usurpation of state authority, the Fifth Circuit reasoned that
federalism principles prevented the habeas court from interfering with the state court’s
judgment. Id. at 569. The court concluded that, while the federal court could grant the
habeas petition and order the state to either release the prisoner or correct its constitutional
error, “the precise remedy is generally left to the state.” Id. (citing Brian R. Means,
FEDERAL HABEAS MANUAL: A GUIDE TO FEDERAL HABEAS CORPUS LITIGATION § 13:4 at
1371 (2014)) (citing multiples cases for proposition that a federal habeas court cannot
dictate the precise remedy for state error).
23

36a

These limitations on the federal court’s habeas authority over state prisoners—
preventing federal courts from modifying or fashioning the specific terms of a state
judgment—mean that the federal district court in Stafon’s case had no authority to “revise
the state court judgment” (see Fay, 372 U.S. at 431) by striking portions of Stafon’s
sentences and refashioning the sentences into something more constitutional. Instead, the
federal district court could only recognize that Stafon’s LWOR sentences were
unconstitutional—which no one questions—and order the State to either correct the
sentences or release Stafon. Cf. Henderson, 155 F.3d at 168; Winston, 683 F.3d at 507;
Woodfox, 789 F.3d at 567.
The Hennepin County District Court, in concluding that the federal court’s order
mandated consecutive sentences and prevented the trial court from exercising discretion,
misunderstood the limits of the federal habeas power. (Doc. 42 at 8-9) The trial court
believed it must defer to the federal court’s imposition of specific sentences, when actually
its prerogative was to craft new sentences consistent with both state law and the United
States Constitution. See Winston, 683 F.3d at 507; Woodfox, 789 F.3d at 569. While the
trial court cited two Minnesota state cases for the idea that the trial court’s role on remand
is to “execute the mandate of the remanding court strictly according to its terms,” those
cases involved remand orders from state courts. Id. at 7 (citing Duffey v. Duffey, 432
N.W.2d 473 (Minn. Ct. App. 1988); Dobbins v. State, 845 N.W.2d 148 (Minn. 2013)).
They shed no light on the limitations of the federal habeas power or the state court’s role
in correcting unconstitutional sentences.

24

APPENDIX E
State of Minnesota
Fourth Judicial District
District Court
Hennepin County
_________
STATE OF MINNESOTA,
Plaintiff,
v.
STAFON EDWARD THOMPSON,
Defendant.
________
Excerpt from Mr. Thompson’s Reply To State’s February 15 Additional
Briefing, pp. 1-2
[Filed February 25, 2019]
(37a)

38a

39a

APPENDIX F
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
_________
STAFON EDWARD THOMPSON,
Petitioner,
v.
TOM ROY, Minnesota Commissioner of Corrections,
Respondent.
________
Meet and Confer Statement
[Filed November 9, 2016]
(40a)

CASE 0:13-cv-01524-PJS-HB Document 35 Filed 11/09/16 Page 1 of 2
41a

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
Stafon Edward Thompson

MEET AND CONFER STATEMENT

Petitioner

Case No:

13-cv-01524 (PJS/HB)

v.
Tom Roy, Commissioner of Corrections
Defendant(s)

We certify that on November 3, 7, and 8, 2016, the parties met via e-mail to
confer about the status of the above-named case. As a result of that conference, the
parties jointly recommend that the Court resolve the case as follows:
1. In light of the United States Supreme Court’s decision in Montgomery v.
Louisiana, 577 U.S. ___, 136 S.Ct. 718 (2016), the Court should recommend that
the petition for writ of habeas corpus (ECF # 1) be GRANTED;
2. The Court should recommend that petitioner’s mandatory sentences of life in
prison without possibility of release be VACATED; and
3. The Court should recommend that the case be REMANDED to the Hennepin
County District Court for resentencing consistent with Miller v. Alabama, 132
S.Ct. 2455 (2012), and Montgomery, 577 U.S. ___ (2016).
Dated: November 9, 2016

/s/
Benjamin J. Butler
Assistant State Public Defender
Minnesota Lic. No. 0314985
Office of the Minnesota Appellate Public Defender
540 Fairview Avenue North, Suite 300
St. Paul, MN 55104
(651) 201-6700
Ben.Butler@pubdef.state.mn.us
ATTORNEY FOR PETITIONER

Dated: November 9, 2016

/s/
J. Michael Richardson
Mike.Richardson@hennepin.us
Assistant Hennepin County Attorney

CASE 0:13-cv-01524-PJS-HB Document 35 Filed 11/09/16 Page 2 of 2
41a
300 South Sixth Street, Suite C-2000
Minneapolis, MN 55487
ATTORNEY FOR RESPONDENT

